HHS/OIG, Audit -"Review of Washington State's Medical Assistance Costs Claimed for School-Based Health Services Provided in State Fiscal Year 2000,"(A-10-02-00008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Washington State's Medical Assistance Costs Claimed for School-Based
Health Services Provided in State Fiscal Year 2000," (A-10-02-00008)
July 25, 2003
Complete
Text of Report is available in PDF format (1.34 MB). Copies can also
be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether medical
assistance costs claimed by Washington State (State) for the school-based health
services program were allowable and adequately supported.  We found the
State did not adequately implement and monitor the program.  As a result,
we determined the State submitted claims for unallowable costs for:  (1)
services that were not covered under Medicaid or properly documented ($3,818,252);
(2) billing fees that were not reimbursable ($573,728); and (3) services provided
to children who were not Medicaid eligible ($15,819).  Based on a projection
of a statistical sample, we estimated the errors to total at least $4,407,799
($2,279,752 Federal share).  We recommended procedural improvements and
a financial adjustment for $2,279,752.